              CLOSEOUT MEMORANDUM FOR M-98080022
On 20 August 1998, an NSF program director' brought an allegation of intellectual theft
to our attention. The complainant: who had received the subject's3 NSF proposal4 to
review (which he declined to do because of a conflict of interests), alleged that the
proposal contained the complainant's idea, which he had included in his own NSF                '




proposal submitted about two months after the subject's proposal.5 He explained that,
before he received the subject's proposal to review, he had been invited by the subject to
present a lecture about his research at the subject's university. During his visit, the
complainant also shared his research work in a meeting with the subject and the subject's
research group. He said that the subject told him he had no plans to pursue lines of
research similar to the complainant's, but nevertheless, the subject's proposal contained
the complainant's idea.

The subject's and the complainant's NSF proposals contained one similar, but not
identical, project. Two of the complainant's papers, cited in the subject's proposal,6
contained a project idea that was similar to one that appeared in the subject's proposal. In
our view, given that the complainant had published his project idea and discussed it in
detail publicly-including in a lecture and in a meeting with the subject and the subject's
research group-the subject's use and further development of the idea did not seriously
deviate from accepted practices. There is no substance to the allegation of misconduct in
science.


cc: Integrity, IG




                                       Footnotes Redacted




                                            Page 1of 1
